      DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                           Washington, D.C. 20201




December 31, 2009

TO:            Mary Wakefield, Ph.D., R.N.
               Administrator
               Health Resources and Services Administration

               /John Hapchuk/ for
FROM:          Joseph E. Vengrin
               Deputy Inspector General for Audit Services


SUBJECT:       Review of Ryan White Title II Funding in Maryland (A-03-08-00551)


Attached is an advance copy of our final report on Ryan White Title II funding in Maryland. We
will issue this report to the Maryland Department of Health and Mental Hygiene’s Infectious
Disease and Environmental Health Administration (the State agency) within 5 business days.

The Ryan White Comprehensive AIDS Resources Emergency (CARE) Act of 1990 funds health
care and support services for people who have HIV/AIDS and who have no health insurance or
are underinsured. Title II of the CARE Act provides grants to States and territories to fund the
purchase of medications through AIDS Drug Assistance Programs (ADAP) and other health care
and support services. Federal law states that these grant funds may not be used to pay for items
or services that are eligible for coverage by other Federal, State, or private health insurance.
Additionally, Title II grant funds may be used only for individuals determined to meet medical
and financial eligibility requirements and must be used for items or services that the grantee
actually purchases.

Our objectives were to determine:

       for grant years 2003 through 2005, whether the State agency complied with the Title II
        payer-of-last-resort requirement that funds not be used to pay for drugs that are eligible
        for coverage by other Federal, State, or private health insurance and whether the State
        agency used the Title II funds only for eligible clients and

       for grant years 2000 through 2005, whether the State agency claimed expenditures only
        for drugs that it actually purchased.

The State agency generally complied with the Title II payer-of-last-resort requirement that funds
not be used to pay for drugs that are eligible for coverage by other Federal, State, or private
health insurance and with the requirement that funds be used only for eligible clients. All 125
Page 2 – Mary Wakefield, Ph.D., R.N.


payments that we reviewed were correctly claimed to the Title II program for eligible clients
without other health care coverage that would have paid for the HIV/AIDS drug. However,
because we did not contact private insurers to determine whether ADAP clients had private
health insurance, we would not have identified any instances in which ADAP clients had such
coverage but had not informed the State agency.

The State agency did not comply with the Federal requirement that reported expenditures include
only drugs that the State agency actually purchased. Specifically, the State agency claimed
$1,847,921 in unallowable Title II expenditures for drugs that it authorized but never purchased.
The State agency did not make all of the necessary adjustments to its database to reduce reported
Title II expenditures for drugs that were authorized but not purchased.

We recommend that the State agency refund $1,847,921 to the Federal Government for reported
expenditures for drugs that it authorized but never purchased.

In written comments on our draft report, the State agency concurred with our finding and said
that it would refund the $1,847,921 to the Federal Government.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities, and
Information Technology Audits, at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov or
Stephen Virbitsky, Regional Inspector General for Audit Services, Region III, at (215) 861-4470 or
through email at Stephen.Virbitsky@oig.hhs.gov. Please refer to report number A-03-08-00551.


Attachment
   DEPARTMENT OF HEALTH & HUMAN SERVICES                               OFFICE OF INSPECTOR GENERAL

                                                                       Office of Audit Services, Region III
                                                                       Public Ledger Building, Suite 316
                                                                       150 S. Independence Mall West
                                                                       Philadelphia, PA 19106-3499




January 8, 2010

Report Number: A-03-08-00551

Ms. Heather Hauck
Director, Infectious Disease and Environmental Health Administration
Maryland Department of Health and Mental Hygiene
500 North Calvert Street, Fifth Floor
Baltimore, Maryland 21202

Dear Ms. Hauck:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled “Review of Ryan White Title II Funding in Maryland.” We
will forward a copy of this report to the HHS action official noted on the following page for
review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(215) 861-4470, or contact Leonard Piccari, Audit Manager, at (215) 861-4493 or through email
at Leonard.Piccari@oig.hhs.gov. Please refer to report number A-03-08-00551 in all
correspondence.

                                             Sincerely,



                                             /Stephen Virbitsky/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Ms. Heather Hauck


Direct Reply to HHS Action Official:

Ms. Sandy Seaton
Health Resources and Services Administration
Office of Federal Assistance Management/Division of Financial Integrity
Room 11A-55, Parklawn Building
Rockville, Maryland 20857
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




     REVIEW OF RYAN WHITE
      TITLE II FUNDING IN
          MARYLAND




                    Daniel R. Levinson
                     Inspector General

                      January 2010
                      A-03-08-00551
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY

BACKGROUND

The Ryan White Comprehensive AIDS Resources Emergency (CARE) Act of 1990,
P.L. No. 101-381, funds health care and support services for people who have HIV/AIDS and
who have no health insurance or are underinsured. As the Federal Government’s largest source
of funding specifically for people with HIV/AIDS, the CARE Act assists more than 500,000
individuals each year. Within the U.S. Department of Health and Human Services, the Health
Resources and Services Administration (HRSA) administers the CARE Act.

Title II of the CARE Act, sections 2611–2631 of the Public Health Service Act, provides grants
to States and territories to fund the purchase of medications through AIDS Drug Assistance
Programs (ADAP) and other health care and support services. Pursuant to 42 U.S.C.
§ 300ff-27(b)(6)(F), these grant funds may not be used to pay for items or services that are
eligible for coverage by other Federal, State, or private health insurance. This provision is
commonly referred to as the “payer of last resort” requirement. Additionally, Title II grant funds
may be used only for individuals determined to meet medical and financial eligibility
requirements.

On its final “Financial Status Reports” for grant years 2000 through 2005, the Maryland
Department of Health and Mental Hygiene’s Infectious Disease and Environmental Health
Administration (the State agency) claimed Title II drug expenditures totaling $106,404,667.
HRSA requires that grantees exclude from these reports any items or services that the program
authorized but did not purchase during the year.

OBJECTIVES

Our objectives were to determine:

       for grant years 2003 through 2005, whether the State agency complied with the Title II
        payer-of-last-resort requirement that funds not be used to pay for drugs that are eligible
        for coverage by other Federal, State, or private health insurance and whether the State
        agency used the Title II funds only for eligible clients and

       for grant years 2000 through 2005, whether the State agency claimed expenditures only
        for drugs that it actually purchased.

SUMMARY OF FINDING

The State agency generally complied with the Title II payer-of-last-resort requirement that funds
not be used to pay for drugs that are eligible for coverage by other Federal, State, or private
health insurance and with the requirement that funds be used only for eligible clients. All 125
payments that we reviewed were correctly claimed to the Title II program for eligible clients
without other health care coverage that would have paid for the HIV/AIDS drug. However,
because we did not contact private insurers to determine whether ADAP clients had private


                                                 i
health insurance, we would not have identified any instances in which ADAP clients had such
coverage but had not informed the State agency.

The State agency did not comply with the Federal requirement that reported expenditures include
only drugs that the State agency actually purchased. Specifically, the State agency claimed
$1,847,921 in unallowable Title II expenditures for drugs that it authorized but never purchased.
The State agency did not make all of the necessary adjustments to its database to reduce reported
Title II expenditures for drugs that were authorized but not purchased.

RECOMMENDATION

We recommend that the State agency refund $1,847,921 to the Federal Government for reported
expenditures for drugs that it authorized but never purchased.

STATE AGENCY COMMENTS

In its written comments on our draft report (included in their entirety as Appendix B), the State
agency concurred with our finding and said that it would refund the $1,847,921 to the Federal
Government. The State agency also offered a technical comment, and we revised our report
accordingly.




                                                 ii
                                                  TABLE OF CONTENTS

                                                                                                                             Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
              Title II Grant Funds .....................................................................................1
              Payer-of-Last-Resort Requirement ..............................................................1
              Program Eligibility Requirements ...............................................................2
              Financial Reporting Requirement ................................................................2

          OBJECTIVES, SCOPE, AND METHODOLOGY.................................................2
               Objectives ....................................................................................................2
               Scope............................................................................................................2
               Methodology ................................................................................................3

FINDING AND RECOMMENDATION.........................................................................4

          EXPENDITURES REPORTED FOR PURCHASES NOT MADE .......................4

          RECOMMENDATION ...........................................................................................5

          STATE AGENCY COMMENTS............................................................................5

APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY

          B: STATE AGENCY COMMENTS




                                                                   iii
                                               INTRODUCTION

BACKGROUND

The Ryan White Comprehensive AIDS Resources Emergency (CARE) Act of 1990,
P.L. No. 101-381, funds health care and support services for people who have HIV/AIDS and
who have no health insurance or are underinsured. As the Federal Government’s largest source
of funding specifically for people with HIV/AIDS, the CARE Act assists more than 500,000
individuals each year. Within the U.S. Department of Health and Human Services, the Health
Resources and Services Administration (HRSA) administers the CARE Act.

Title II Grant Funds

Title II of the CARE Act, sections 2611–2631 of the Public Health Service Act, provides grants
to States and territories to fund the purchase of medications through AIDS Drug Assistance
Programs (ADAP) and other HIV/AIDS health and support services, such as outpatient care,
home and hospice care, and case management.

In Maryland, the Department of Health and Mental Hygiene’s Infectious Disease and
Environmental Health Administration (the State agency) administers the Title II program. The
majority of Maryland’s Title II program funds are designated for drugs to treat HIV/AIDS
through the ADAP. For example, ADAP expenditures for the grant year ended March 31, 2006,
accounted for about 62 percent of Title II expenditures.

Payer-of-Last-Resort Requirement

Title II of the CARE Act stipulates that grant funds not be used to pay for items or services that
are eligible for coverage by other Federal, State, or private health insurance. This provision is
commonly referred to as the “payer of last resort” requirement. Specifically, section
2617(b)(6)(F) of the Public Health Service Act (42 U.S.C. § 300ff-27(b)(6)(F)) states:

           [T]he State will ensure that grant funds are not utilized to make payments for any
           item or service to the extent that payment has been made, or can reasonably be
           expected to be made, with respect to that item or service –
                   (i) under any State compensation program, under an insurance policy, or
                        under any Federal or State health benefits program; or
                   (ii) by an entity that provides health services on a prepaid basis. 1

In addition, HRSA Program Policy No. 97-02, issued February 1, 1997, and reissued as DSS 2
Program Policy Guidance No. 2 on June 1, 2000, reiterates the statutory requirement that “funds
1
 Subsequent to our audit period, the Ryan White HIV/AIDS Treatment Modernization Act of 2006, §§ 204(c)(1)(A)
and (c)(3), P.L. No. 109-415 (Dec. 19, 2006), redesignated this provision as section 2617(b)(7)(F) (42 U.S.C.
§ 300ff-27(b)(7)(F)) and amended subparagraph (ii) to prohibit the State from using these grant funds for any item
or service that should be paid for “by an entity that provides health services on a prepaid basis (except for a program
administered by or providing the services of the Indian Health Service).”

2
    DSS is the Division of Service Systems, a component of HRSA’s HIV/AIDS Bureau.


                                                           1
received . . . will not be utilized to make payments for any item or service to the extent that
payment has been made, or can reasonably be expected to be made . . .” by sources other than
Title II funds. The guidance then provides: “At the individual client level, this means that
grantees and/or their subcontractors are expected to make reasonable efforts to secure other
funding instead of CARE Act funds whenever possible.”

Program Eligibility Requirements

Pursuant to section 2616(b) of the Public Health Service Act (42 U.S.C. § 300ff-26(b)), to be
eligible to receive assistance from a State under Title II of the CARE Act, an individual must
“(1) have a medical diagnosis of HIV disease; and (2) be a low-income individual, as defined by
the State.” Code of Maryland Regulations Title 10.18.05.03.B and .C require a written
certification by specified medical professionals that the applicant has been diagnosed with HIV
or AIDS and define a low-income individual as an applicant whose household income is not
expected to exceed limits based on a percentage of the Federal poverty guidelines.

Financial Reporting Requirement

Pursuant to 45 CFR § 92.41, grantees are required to use Standard Form 269, “Financial Status
Report” (FSR), to report the status of grant funds. HRSA uses these reports to monitor cash
advances to grantees and to obtain disbursement or outlay information for each grant. The FSR,
which is an accounting of expenditures under the grant, is due within 90 days after the grant
year. The “CARE Act Title II Manual” prohibits grantees from including unliquidated
obligations (items or services that the program authorized but did not purchase during the year)
on their FSRs.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine:

       for grant years 2003 through 2005, whether the State agency complied with the Title II
        payer-of-last-resort requirement that funds not be used to pay for drugs that are eligible
        for coverage by other Federal, State, or private health insurance and whether the State
        agency used the Title II funds only for eligible clients and

       for grant years 2000 through 2005, whether the State agency claimed expenditures only
        for drugs that it actually purchased.

Scope

Our review covered the State agency’s compliance with the payer-of-last-resort requirement for
the period April 1, 2003, through March 31, 2006 (grant years 2003 through 2005). We also
reviewed reported ADAP drug expenditures for the period April 1, 2000, through March 31,




                                                 2
2006 (grant years 2000 through 2005). 3 On its final FSRs, the State agency claimed ADAP
expenditures totaling $106,404,667 for HIV/AIDS drugs dispensed at pharmacies throughout
Maryland during grant years 2000 through 2005.

We did not assess the State agency’s overall internal controls for administering Title II funds.
Rather, we limited our review to gaining an understanding of those controls related to claiming
HIV/AIDS drug costs. Because of concerns about protecting program clients’ personally
identifiable identification, we did not contact private health insurance companies to determine
whether clients had private health insurance coverage.

We conducted our fieldwork at the State agency in Baltimore, Maryland, and at six pharmacies
located throughout Maryland from February 2008 through February 2009.

Methodology

To accomplish our objectives, we:

       reviewed applicable Federal and State laws, regulations, and guidance;

       reviewed documentation provided by the State agency for grant years 2000 through 2005,
        including Title II grant applications, notices of grant award, FSRs and supporting
        accounting records, and the ADAP drug formulary (a list of drugs authorized for
        purchase by the program);

       held discussions with State agency officials to identify policies, procedures, and guidance
        for billing HIV/AIDS drugs to other Federal or State programs and private health
        insurance plans;

       analyzed the State agency’s procedures for accounting for and dispensing drugs to Title II
        clients;

       identified from the State agency’s invoice database for grant years 2003 through 2005 a
        sampling frame of 173,273 drug payments totaling $82,233,150 (Federal share) that were
        equal to or greater than $100.01 each;

       verified the completeness of the State agency’s invoice database by judgmentally
        selecting client case folders and matching the data to the database;

       reviewed all 25 payments of $3,500 or more and selected, as detailed in Appendix A, a
        simple random sample of 100 payments between $100.01 and $3,499.99 each;

       reviewed, for the 125 payments;

3
 The original scope of our review was April 1, 2003, through March 31, 2006. Based on our preliminary results, we
advised the State agency that we were expanding the scope to cover reported ADAP drug expenditures from April 1,
2000, through March 31, 2006.


                                                       3
           o State agency client data to determine whether the clients were enrolled in private
             health insurance plans,

           o Federal Medicaid records to determine whether the clients were enrolled in
             Medicaid, and

           o State agency client case folders to verify client eligibility;

      identified drug payments for grant years 2000 through 2005 from the State agency’s
       invoice database and determined whether they matched the drug expenditures on the
       FSRs; and

      visited six judgmentally selected pharmacies that participated in the ADAP to review
       procedures for dispensing HIV/AIDS drugs and for billing the State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objectives.

                           FINDING AND RECOMMENDATION

The State agency generally complied with the Title II payer-of-last-resort requirement that funds
not be used to pay for drugs that are eligible for coverage by other Federal, State, or private
health insurance and with the requirement that funds be used only for eligible clients. All 125
payments that we reviewed were correctly claimed to the Title II program for eligible clients
without other health care coverage that would have paid for the HIV/AIDS drug. However,
because we did not contact private insurers to determine whether ADAP clients had private
health insurance, we would not have identified any instances in which ADAP clients had such
coverage but had not informed the State agency.

The State agency did not comply with the Federal requirement that reported expenditures include
only drugs that the State agency actually purchased. Specifically, the State agency claimed
$1,847,921 in unallowable Title II expenditures for drugs that it authorized but never purchased.
The State agency did not make all of the necessary adjustments to its database to reduce reported
Title II expenditures for drugs that were authorized but not purchased.

EXPENDITURES REPORTED FOR PURCHASES NOT MADE

Pursuant to 45 CFR § 92.23(b), obligations must be liquidated within 90 days of the end of the
grant period unless the program grants an extension. HRSA may grant extensions of up to
6 months after the end of the fiscal year. The “CARE Act Title II Manual,” section III,
chapter 2(D), requires grantees to report annual grant expenditures on the final FSR and to
exclude any unliquidated obligations (the costs of items or services that were authorized but not
purchased during the year).


                                                 4
The State agency incorrectly claimed $1,847,921 for medications that it authorized but never
purchased. These claims occurred before May 2004, when the State agency was using a paper
invoice system. Under the paper invoice system, the pharmacy called the State agency for
approval to dispense the drug after an ADAP client provided a prescription to a participating
pharmacy. The State agency then created a preauthorization for the expenditure in its database.
When the pharmacy submitted a paper invoice, it received payment based on the
preauthorization. If the State agency received no invoice, its procedure was to remove the
preauthorized expenditure from the database and prevent its inclusion on the FSR.

For grant years 2000 through 2003, the State agency claimed net preauthorized expenditures
totaling $1,847,921 for which pharmacies never submitted invoices and the State agency never
made payments. The State agency did not follow its procedure to remove these unpaid
preauthorizations from its database and prevent their inclusion on the FSR. The table below
summarizes the unpaid preauthorizations claimed by grant year.

                      Unpaid Preauthorizations Claimed by Grant Year

                                                   Net Unpaid
                                                Preauthorizations
                               Grant Year      Claimed on the FSR
                                  2000               $419,808
                                  2001                461,706
                                  2002                545,198
                                  2003                421,209
                                  2004                      0
                                  2005                      0
                                 Total             $1,847,921

In May 2004, the State agency adopted an electronic invoice system and discontinued using
preauthorizations and paper invoices, which eliminated the need for manually removing
preauthorized expenditures from the database. The State agency accurately reported
expenditures for grant years 2004 and 2005.

RECOMMENDATION

We recommend that the State agency refund $1,847,921 to the Federal Government for reported
expenditures for drugs that it authorized but never purchased.

STATE AGENCY COMMENTS

In its written comments on our draft report (included in their entirety as Appendix B), the State
agency concurred with our finding and said that it would refund the $1,847,921 to the Federal
Government. The State agency also offered a technical comment, and we revised our report
accordingly.




                                                 5
APPENDIXES
                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of all federally funded payments for AIDS Drug Assistance Program
(ADAP) drugs dispensed to HIV/AIDS patients and claimed from April 1, 2003, through
March 31, 2006.

SAMPLING FRAME

We excluded from the population payments that were less than or equal to $100 each. The
resulting sampling frame consisted of 173,273 payments totaling $82,233,150 that were equal to
or greater than $100.01 each. The 173,273 payments included 173,248 payments of $100.01 to
$3,499.99 each and 25 payments of $3,500 or more each.

SAMPLE UNIT

The sample unit was a payment for ADAP drugs dispensed to an HIV/AIDS patient.

SAMPLE DESIGN

We used a simple random sample to select payments of $100.01 to $3,499.99 each.

SAMPLE SIZE

We selected a sample of 100 payments from the 173,248 payments of $100.01 to $3,499.99 each.
We also reviewed all 25 payments of $3,500 or more each. In total, we reviewed 125 payments.

SOURCE OF THE RANDOM NUMBERS

We used the Office of Inspector General, Office of Audit Services, statistical sampling software
to generate the random numbers for our sample.

METHOD OF SELECTING SAMPLE ITEMS

We sequentially numbered the payments in our sampling frame that amounted to $100.01 to
$3,499.99 each. After generating 100 random numbers, we selected the corresponding frame
items.
                       APPENDIX B: STATE AGENCY COMMENTS
                       STATE OF MARYlAND


                       DHMH
                       Maryland Department of Health and Mental Hygiene
                       Martin O'Malley, Govomor-An1hony G. Brown, Ll Govcmor - John M. Colmers, Socfetaty
                             Infectio us Disease and Environmenta l H ealth Administration

                                           Heather L. Hauck, LICSW, MSW, Di~tor
Angela M, Wakhweya, MD, MSc., Deputy Director             Clifford S. Mitchell, MS, MD, MPH, Acting Assistant Director
Richard W. Stringer, Chief Financial Officer              David Blythe, MD, MPH, Acting Assistant DlrectorlStalc Epidemiologist


                                                     September II, 2009


Stephen VirbilSky, Regional Inspector General for Aud it Servi<:<:s
Department ofHcalth & HumW! ServiC(:s,
Office of Inspector General
Office of Audit Services, Region III
Public Ledger Building, Suite 316
ISO S.lndependence Mall West
Philadelphia, PA 19 106-3499

RE: Audit Report Number A-(l3-oS-0055 I

Dear Mr. Virbitsk}':

      This letter is in response to the U.S. Department of Health and Human Services, Office of Inspector General (OIG)
draft report entitled "Review of Ryan White Title II Funding in Maryland" covering grant years 2000 10 2005. The report
indicates one fmding of"the State agency did not comply with the Federal requircmentthat reported expenditures include
only drugs that the state agency actually purehased". As the report indicates, this finding is due to complex paper invoie<:
system in use in grant years 2000 through 2003. The adoption ofan electronic invoie<: system in May 2004 con-ected the
problem, and, as the report states, "the State agency accurJ.tely reponed expendirures for grant years 2004 and 2005".

     The recommendation in the report is that '"'!be State agency refund 5 1,847,921 to the Federal Government for reported
expenditures for drugs that it never purchased". The State is in collCurre~ with the finding in the repon, and as
recommended, will refund $ 1,847,921 to the Federal Government.

     As per our conversation with Leonard Piccari , the Audit ManagC!, we are requesting that one sentence in the draft audit
report be modified. On page 4 of the draft report, in the section "Finding and Recommendation", we are requesting that the
phntsc ~drugs that it never purchased" be changed to " drugs that it authorized but never purehased".

      We appreciate the opportunity to review the draft report.

                                                   Sincerely,

                                                      7/wr;;oI<fhwj, MJ<J
                                                   Heather L. Hauck., LlCSW, MSW
                                                   Director

cc: 	Glenn Clark, Ch ie f, Center for HIV Care Services
     Angela Wakhweya, Deputy Director



201 W. P=I(ID SIIttt, B&llimore, Maryland 21201                     SOIl N. CalVUI Street. 5- Fl. Saltimotc, Maryland 21202
410-767-6742 FIX41 0-333·5995                                       410-767·,227 • FIX 410-333-6333 - TOO for 0iJM1ed 410-333-480(1
Toll Free 1·877-4MD·OHMH TYY forDi.. bled                           Toll F,•• 1-800·358·9001' TfY for Diubled
Maryland Relay Service 1·1100·735-2258 	                            Maryland Reu.y Savice 1·800-735·2258
